<html>
<title> - OVERSIGHT HEARING ON THE ENVIRONMENTAL PROTECTION AGENCY'S IMPLEMENTATION OF THE SAFE DRINKING WATER ACT'S UNREGULATED DRINKING WATER CONTAMINANTS PROGRAM</title>
<body><pre>[Senate Hearing 112-953]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-953

      OVERSIGHT HEARING ON THE ENVIRONMENTAL PROTECTION AGENCY'S 
 IMPLEMENTATION OF THE SAFE DRINKING WATER ACT'S UNREGULATED DRINKING 
                       WATER CONTAMINANTS PROGRAM

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 12, 2011

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




         Available via the World Wide Web: http://www.fdsys.gov
         
         
         



      OVERSIGHT HEARING ON THE ENVIRONMENTAL PROTECTION AGENCY'S 
 IMPLEMENTATION OF THE SAFE DRINKING WATER ACT'S UNREGULATED DRINKING 
                       WATER CONTAMINANTS PROGRAM
                       
                       
                       
                       
                       
                       




                                                        S. Hrg. 112-953
 
      OVERSIGHT HEARING ON THE ENVIRONMENTAL PROTECTION AGENCY'S 
 IMPLEMENTATION OF THE SAFE DRINKING WATER ACT'S UNREGULATED DRINKING 
                       WATER CONTAMINANTS PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
                          __________




                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-819 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                 
                 

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 12, 2011
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, James M., U.S. Senator from the State of Oklahoma........     3
Lautenberg, Frank, U.S. Senator from the State of New Jersey.....     5
Boozman, Hon. John, U.S. Senator from the State of Arkansas......     6
Cardin Hon. Benjamin, U.S. Senator from the State of Maryland....     7
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   177

                               WITNESSES

Trimble, David C., Director, Natural Resources And Environment, 
  Government Accountability Office...............................     8
    Prepared statement...........................................    11
    Responses to additional questions from:
        Senator Boxer............................................    36
        Senator Inhofe...........................................    41
Perciasepe, Hon. Robert, Deputy Administrator, Environmental 
  Protection Agency..............................................    43
    Prepared statement...........................................    45
    Responses to additional questions from:
        Senator Boxer............................................    55
        Senator Whitehouse.......................................    59
        Senator Inhofe...........................................    63
Goldman, Lynn, Md, Mph, American Public Health Association, Dean 
  of the School of Public Health and Health Services and 
  Professor of Environmental and Occupational Health at the 
  George Washington University...................................    88
    Prepared statement...........................................    90
    Responses to additional questions from:
        Senator Boxer............................................    97
        Senator Inhofe...........................................    97
Araiza, Anthony, General Manager, West Valley Water District.....    98
    Prepared statement...........................................   100
    Responses to additional questions from Senator Inhofe........   103
Joseph A. Cotruvo, Ph.D., President, Joseph Cotruvo and 
  Associates.....................................................   106
    Prepared statement...........................................   108
    Responses to additional questions from Senator Inhofe........   118
Patierno, Steven R., Ph.D., Executive Director, George Washington 
  University Cancer Center.......................................   124
    Prepared statement...........................................   137
    Responses to additional questions from Senator Inhofe........   161
Griffiths, Jeffrey, K., Md, MPH and TM, Chair, Drinking Water 
  Committee, Science Advisory Board of United States 
  Environmental Protection Agency, Professor of Public Health and 
  of Medicine, Tufts University School of Medicine...............   165
    Prepared statement...........................................   167

                          ADDITIONAL MATERIAL

Peer Review Workshop for EPS's Draft Toxicological Review of 
  Hexavalent Chromium; Reviewer Post-Meeting Comments............   179


      OVERSIGHT HEARING ON THE ENVIRONMENTAL PROTECTION AGENCY'S 
 IMPLEMENTATION OF THE SAFE DRINKING WATER ACT'S UNREGULATED DRINKING 
                       WATER CONTAMINANTS PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 12, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Cardin, 
Whitehouse, Udall, Boozman.

               STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Welcome, everybody. I have called this 
hearing to examine one of the most important Federal public 
health safeguards in our Country, the Safe Drinking Water Act. 
Everyone has a right to clean and safe drinking water, and it 
is essential to the health of our children and our families 
that drinking water be free from harmful chemicals and 
pollutants.
    In order to ensure that enough is being done to protect our 
Nation from emerging contaminants, I, along with 
Representatives Waxman and Markey, asked the GAO to investigate 
the unregulated contaminant program. The report is being 
released today. I want to thank the GAO, the Government 
Accountability Office, for their work and welcome them here 
today, along with our Deputy Administrative. We welcome both.
    The GAO investigation addresses the stunning fact that the 
EPA has not made a determination to regulate any new drinking 
water contaminants, with one very recent exception. And that 
failure to move goes back to 1996 when the law was last 
amended. This law was signed by Gerald Ford, who made a very 
eloquent statement about it. I think it is very important to 
remember that our landmark laws are bipartisan in nature, and 
why I think it is so important that we work across party.
    This is what Gerald Ford said when he signed the Safe 
Drinking Water Act: ``Nothing is more essential to the life of 
every single American than clean air and pure food and safe 
drinking water. There have been strong national programs to 
improve the quality of our air and the purity of our food.'' He 
said, ``This bill, the Safe Drinking Water Act, will provide us 
with the protection we need for drinking water.''
    And since I have mentioned Gerald Ford, I want to note the 
passing of this incredible former First Lady, Betty Ford, who I 
had the pleasure of meeting and following her career. I know I 
speak for everybody when we send our deepest condolences. Her 
life was a life that really impacted others because she had 
courage to speak about things that a lot of people were fearful 
to speak about, whether it was breast cancer or the challenges 
facing society or addiction to drugs and alcohol. I just think 
her kind of leadership, which she really did not seek the 
spotlight, had a tremendous impact. I wanted to make that note.
    So when we talk about this report and why it is so 
important, I think the report is in the spirit of what Gerald 
Ford said, that we expect to have safe drinking water. In order 
to do that, we need to update our laws to make sure that we are 
not allowing certain contaminants in the water. And the GAO is 
very clear that EPA has to find what contaminants are dangerous 
and get them out of the water.
    In 1996, Congress amended the Safe Drinking Water Act and 
directed EPA to use the best available science to create 
drinking water safeguards that would protect the most 
vulnerable, including infants, children and pregnant women. As 
the GAO report shows, the development of new standards for 
unregulated drinking water contaminants, such as perchlorate, 
were derailed in a process that failed to use the best 
available science.
    We all say we want the best available science, Republicans, 
Democrats. We can just decide something is bad for you because 
it sound bad, has a scary name. We have to know the science 
behind it. And the fact is, we haven't seen any action since 
1996 with this recent exception of perchlorate, for which I am 
very grateful. Because I have a bill with Senator Feinstein to 
regulate perchlorate. But it shouldn't be necessary to go to 
one contaminant at a time. The EPA has to act.
    Scientific information has shown that certain emerging 
contaminants in our drinking water, such as perchlorate and 
chromium-6 could be harmful to children and families. 
Perchlorate, which is used in rocket fuel, fireworks and road 
flares, poses a threat to human health when found in drinking 
water. It impairs the function of the thyroid gland, which 
harms children's development and can result in decreased 
learning capacity. EPA needs to have a process that vigorously 
addresses these contaminants to help ensure the safety of our 
water.
    GAO's report lays out a transparent and accountable 
framework that can help to ensure the EPA uses the best 
available science when creating drinking water protections for 
our communities and our families. Again, I am so glad that EPA 
is here today. And they are going to tell us about the 
implementation of the program. We are also going to hear GAO's 
testimony on the agency's need to use science to ensure that 
the Federal Government provides strong public health 
protections against drinking water contaminants.
    And with that, Senator Inhofe.

              STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. And let me tell 
you, I appreciate your remarks about Betty Ford. I happened to 
know her quite well. And you are right, she got into things, 
talking about alcoholism and she probably accomplished more 
than any other First Lady I can think of. They are celebrating 
her life today.
    I think everyone in this room agrees that providing safe, 
clean, affordable drinking water is essential and should be a 
national priority. At the cornerstone of the Safe Drinking 
Water Act is the idea that we should be controlling those 
substances that pose risks to public health. Unfortunately, the 
system that EPA uses to determine health risks, the IRIS 
system, the Integrated Risk Information System, has decades-
long issues in crafting risk assessments. The National Academy 
of Sciences has recently pointed out that IRIS assessments have 
suffered from lack of transparency and consistency and problems 
with evaluating studies and the weight of evidence. These 
problems continue to persist in the face of the NAS and 
Congress repeatedly imploring EPA to correct these issues.
    Without having a good foundation and sound science, 
practices in all areas of EPA's regulatory system are 
suffering, including drinking water. Unbiased, high quality 
scientific analyses are important foundations for making 
drinking water decisions. When the risk assessment that EPA is 
producing are unable to maintain the highest possible standards 
for scientific quality and integrity, every decision that 
follows is called into question.
    Senator Vitter and I are trying to get the EPA to explain 
how they plan to address the systematic concerns with IRIS that 
were raised by the recent NAS review of formaldehyde, a 
chemical we have decades of experience and information to draw 
upon. Now, if the IRIS review of a chemical that we have a 
great history on is so fundamentally flawed, it is hard to 
imagine how we will end up with good science on chemicals of 
emerging concern. I am looking forward to hearing from the EPA 
about how they plan to address these concerns.
    As analytical techniques continue to improve, we are able 
to detect constituents at increasingly lower levels. This ever-
increasing ability to detect will allow the numbers of 
chemicals in our water to increase infinitely. However, it is 
important that we do not associate any detection with risk. In 
nearly every case, the extremely low levels that we are 
detecting are well below the dosage that would affect public 
health. To be perfectly clear, exposure does not mean there is 
risk. This is just one more example of the importance of 
getting robust science to guide our policy decisions to help 
correctly communicate to the public what the risk associated 
with a particular contaminant is.
    It is no surprise that nearly half of Americans are 
concerned about the quality of their drinking water when 
headlines and talking points are filled with alarmist stories 
of chemical detection with no information about what that means 
specifically to their health.
    Furthermore, it makes no sense to continue to tighten 
drinking water standards and send drinking water down an aging 
and failing infrastructure system. EPA estimates that just to 
keep up with the current drinking water requirements over the 
next 20 years, eligible drinking water systems will need over 
$300 billion in infrastructure investment. We need to improve 
our Nation's drinking water facilities by authorizing and 
reauthorizing the State Revolving Loan Fund programs, both for 
drinking water as well as for wastewater.
    I was extremely disappointed by EPA's cuts of almost $950 
million to the SRF program. By making these cuts, EPA is 
increasing funding mandates on water providers throughout the 
Country. We can't expect our communities to continue to provide 
safe drinking water if they don't have the resources to do it.
    This is something I have been talking about for such a long 
period of time. And I know my State of Oklahoma is not totally 
different than other States. But we have a lot of communities 
that just can't afford these things. When I was mayor of Tulsa, 
I have to say that the biggest problems, and I know Bob 
Perciasepe has heard me say this before, the biggest problems 
facing our cities are really not prostitution and crime and 
all, it is unfunded mandates. And that is something that we 
have to be familiar with and have to address.
    And finally, Madam Chairman, I would like to request that 
the record of this hearing be kept open for two additional 
weeks, so that both outside groups and our witnesses here today 
have the opportunity to review the GAO report on unregulated 
contaminants, which has been unavailable to the public until 
now. So I think we may need to have the access to that, and 
then have a comment period.
    I am looking forward to hearing from the witnesses today, 
especially Dr. Patierno, who will share his expertise in 
chromium-6, something that is very interesting to me concerning 
the problems that exist in my city of Norman, Oklahoma, Dr. 
Cotruvo, who can share his lengthy public health and drinking 
water experience, and Deputy Administrator Bob Perciasepe, whom 
we have gotten to know very well.
    We are going to try to stay and maybe expedite this and get 
it all done throughout the second panel. Thank you, Madam 
Chairman.
    [The prepared statement of Senator Inhofe follows:]

          Statement of Senator James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you, Madam Chairman, for taking the time today to 
continue our discussions about Federal drinking water programs. 
I know that everyone in this room agrees that providing clean, 
safe, affordable drinking water is essential, and should be a 
national priority.
    At the cornerstone of the Safe Drinking Water Act is the 
idea that we should be controlling those substances that pose 
risks to public health. Unfortunately, the system that EPA uses 
to determine health risks, the Integrated Risk Information 
System (IRIS), has a decade's long issues in crafting risk 
assessments. The National Academy of Sciences (NAS) has 
recently pointed out that IRIS assessments have suffered from a 
lack of transparency, inconsistency, and problems with 
evaluating studies and the weight of evidence. These problems 
continue to persist in the face of NAS and Congress repeatedly 
imploring EPA to correct these issues. Without having a good 
foundation and sound science practices, all areas of EPA's 
regulatory system suffer, including drinking water.
    Unbiased, high-quality, scientific analyses are important 
foundations for making drinking water decisions. When the risk 
assessments that EPA is producing are unable to maintain the 
highest possible standards for scientific quality and 
integrity, every decision that follows is called into question. 
Sen. Vitter and I are trying to get EPA to explain how they 
plan to address the systematic concerns with IRIS that were 
raised in the recent NAS review of Formaldehyde, a chemical we 
have decades of experience and information to draw upon. If the 
IRIS review for a chemical that we have great history on is so 
fundamentally flawed, it is hard to imagine how we will end up 
with good science on chemicals of emerging concern. I am 
looking forward to hearing from EPA about how they plan to 
address these concerns soon.
    As analytical techniques continue to improve, we are able 
to detect constituents at increasingly lower levels. This ever 
increasing ability to detect will allow the numbers of 
chemicals in our water to increase infinitely. However, it is 
important that we do not associate any detection with risk. In 
nearly every case, the extremely low levels we are detecting 
are well below the dosage that would affect public health. To 
be perfectly clear, exposure does not mean there is risk. This 
is just one more example of the importance of getting robust 
science to guide our policy decisions and to help correctly 
communicate to the public what the risk associated with a 
particular contaminant is. It is no surprise that nearly half 
of Americans are concerned about the quality of their drinking 
water when headlines and talking points are filled with 
alarmist stories of chemical detection with no information 
about what that means to their health.
    Furthermore, it makes no sense to continue to tighten 
drinking water standards and send drinking water down an aging 
and failing infrastructure system. EPA estimates that just to 
keep up with the current drinking water requirements over the 
next 20 years, eligible drinking water systems will need over 
$300 billion in infrastructure investments. We need to improve 
our nation's drinking water facilities by reauthorizing the 
State Revolving Loan Fund programs, both for drinking water and 
waste water.
    I was extremely disappointed by EPA's cuts of almost $950 
million to the SRF program. By making these cuts, EPA is 
increasing unfunded mandates on water providers throughout the 
country. We cannot expect our communities to continue to 
provide safe drinking water if they do not have the resources 
to meet their infrastructure needs. We have the responsibility 
to ensure clean, safe, and affordable water for our country by 
providing the necessary resources to our states and local 
governments.
    Finally, Madam Chairman, I would like to request that the 
record for this hearing be kept open for 2 weeks, so that both 
outside groups and our witnesses here today, have the 
opportunity to review this GAO report on Unregulated 
Contaminants, which has been unavailable to the public until 
now, and provide a more robust understanding of the 
recommendations and suggestions for the committee record.
    I look forward to hearing from all of our witnesses today, 
especially Dr. Patierno, who will share his expertise in 
chromium-6, something of interest to me and to my constituents 
in Norman, OK, Dr. Cotruvo, who can share his lengthy public 
health and drinking water experience, and Deputy Administrator 
Perciasepe. Thank you.

    Senator Boxer. Thank you so much. And without objection, we 
will keep the record open for 2 weeks so everyone can avail 
themselves of the report and ask questions of the GAO.
    Senator Lautenberg, welcome.

              STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman, 
for holding this hearing.
    Clean water is as fundamental to our health as breathing 
clean air. And since the Safe Drinking Water Act came about 37 
years ago, we have made significant progress making sure the 
Nation's water supply is clean and safe. But we still have a 
lot of work to do.
    Research shows that there are more than 140 chemicals in 
our drinking water that EPA does not regulate. In some parts of 
the Country, these chemicals include gasoline additives and 
pesticides. Other States, natural gas drillers inject diesel 
fuel and chemicals into the ground as part of the now more 
popular fracking process, and EPA is powerless to do anything 
about it because of a loophole in the Safe Drinking Water Act 
that I and others on this Committee have fought to repeal.
    In many ways, we are still being haunted by the neglect of 
the prior Administration, which repeatedly failed to set limits 
and strengthen regulations on pollution in the Nation's water 
supply. During the Bush years, each and every time that the EPA 
was given an opportunity to improve water safety, the agency 
chose not to act. Today, we are going to hear the results of a 
new Government Accountability Office investigation that sheds 
additional light on this negligence and misplaced priorities.
    GAO's investigation shows how much the Bush administration 
looked the other way, instead of regulating dangerous chemicals 
like perchlorate, a toxic substance found in rocket fuel. 
Instead of letting agency scientists and the law drive 
regulatory decisions, political appointees, acting and meeting 
in secret, pushed the agency away from putting limits on 
perchlorate. Fortunately, under President Obama, EPA is moving 
in the right direction once again working on the public's 
behalf.
    The agency is taking steps to set new limits on chemicals 
in our drinking water and doing more to determine the impact of 
natural gas drilling on our Country's water supply. The EPA is 
making good use of the tools under the Safe Drinking Water Act. 
But the law itself limits EPA's ability to protect the public's 
right to know. The Safe Drinking Water Act only allows EPA to 
regulate temporary monitoring of a small group of unregulated 
contaminants. So the public has no idea that they might be 
drinking water laden with unregulated contaminants like flame 
retardants, gasoline additives or other toxics.
    Twenty-five years ago, I authored the Right to Know law on 
toxic chemical releases to make sure that people know about 
potentially hazardous substances in their communities. The 
public also has a right to know what is in their water. That is 
why I introduced the Drinking Water Right to Know Act. My bill 
would require a targeted increase in monitoring for unregulated 
pollutants that could be hazardous.
    In addition, the bill would require EPA to make information 
on contaminants in drinking water more readily available online 
and in plain English. More information on contaminants will 
empower citizens and help government to make better decisions 
on pollutants in the water supply.
    So I look forward to hearing from our witnesses about how 
we can work together to make sure that every person has clean, 
safe water to drink when they turn on the tap. Thank you, Madam 
Chairman.
    Senator Boxer. Thank you very much.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. I will have a statement for the record. 
Thank you.
    [The prepared statement of Senator Boozman was not 
submitted at time of print.]
    Senator Boxer. Thank you.
    Senator Cardin.

              STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chairman, I am going to put my full 
statement in the record, and I do want to welcome our 
witnesses. I just want to underscore a point that has been 
said, and that is Americans expect when they turn their taps on 
they are going to get clean water. And we have to make sure 
that in fact becomes, maintains reality.
    The way that unregulated contaminants are handled raises 
concern. We know we review them every 5 years, but to move it 
to regulation has been extremely cumbersome and difficult. Some 
of our States have acted because the Federal Government has not 
been able to act. I am not sure that is the substitute for the 
Federal Government acting. To me, this is one of our principal 
responsibilities, to make sure that we have safe and clean 
water for the people of this Nation.
    I look forward to this hearing.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madame Chairman, thank you.
    Readily available, safe drinking water is an expectation 
most people in our Nation have come to take for granted.
    The Safe Drinking Water Act Amendments of 1996 contain a 
provision that requires the EPA to evaluate chemicals in our 
drinking water and to regulate them as necessary. In its recent 
preliminary regulatory determination, however, the EPA has 
decided that it will NOT regulate 11 new chemicals found in our 
Nation's tap water.
    One such contaminant is perchlorate--a chemical found in 
fireworks, explosives, and rocket motors. The chemical has been 
found in the drinking water of at least 35 states and the 
District of Columbia. Perchlorate has been found in breast 
milk.
    It is known that perchlorate affects the ability of the 
thyroid gland to take up iodine. Iodine is needed to make 
thyroid hormones that regulate many body functions after they 
are released into the blood. Children are more likely to be 
affected by perchlorate than adults because thyroid hormones 
are essential for normal growth and development.
    Despite the known science on the hazards of perchlorate, 
EPA has failed to establish a safety standard for perchlorate 
in drinking water.
    Lacking Federal leadership, several states, including 
Maryland have adopted their own standards for perchlorate in 
drinking water. These standards range from 2 parts-per-billion 
in Massachusetts to 6 parts-per-billion in California. In 2002, 
my State of Maryland established a 1 ppb advisory level for 
perchlorate. There are two communities in Maryland that 
exceeded this advisory level and have since installed treatment 
facilities: the city of Aberdeen in Harford County and the 
Sherwood Forest Mobile Home Park in Cecil County.
    Given the disparities in the advisory levels and standards 
for perchlorate from one State to another, our constituents may 
be confused and concerned that there is no National standard 
for perchlorate in their water given the risks, in particular 
to pregnant mothers and young children, of low-level exposure 
to perchlorate.
    My concerns about perchlorate, particularly the EPA's 
failure to provide a regulation requiring monitoring of and 
notification for perchlorate in drinking water have led me to 
co-sponsor two bills that you, Madame Chairman have offered: S. 
24, the ``Perchlorate Monitoring and Right-to-Know Act of 
2007'' and S. 150. the ``Protecting Pregnant Women and Children 
From Perchlorate Act of 2007''
    A similar lack of action has existed for trichloroethylene 
or TCE: Even after a draft EPA Risk Assessment found that TCE 
was as much as 40 times more carcinogenic than previously 
thought, rather than setting a more protective standard for TCE 
in drinking water, the EPA called for more study.
    Given the EPA's recent history of not particularly timely 
development of new regulations, I am concerned that it may be 
several years before this new information might be incorporated 
into new regulatory standards.
    Existing scientific studies strongly suggest that the EPA 
should be acting expeditiously on developing regulations to 
limit exposure to perchlorate and TCE. It is unfortunate, that 
as with other environmental matters, the EPA has dragged its 
feet when the health of our Nation is at risk.
    I look forward to the testimony from today's witnesses in 
helping to clarify this issue. There is scientific 
justification for the EPA to act quickly on these chemicals in 
our drinking water. If EPA cannot act, we must. Our country 
deserves better.
    Thank you Madame Chairman.

    Senator Boxer. Thank you very much.
    We will now turn to our panel. I think we are going to hear 
from the Government Accountability Office first, so that Hon. 
Deputy Administrator can respond to their findings. So Mr. 
Trimble, we welcome you and we thank you for all your heard 
work. We look forward to your presentation. You can summarize 
in 5 minutes, and if we have further questions, we will ask 
them.

STATEMENT OF DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. I am pleased to be here today to discuss our 
report being released today on EPA's program for regulating 
additional drinking water contaminants. We evaluated EPA's 
implementation of the 1996 amendments to the Safe Drinking 
Water Act, and reviewed the process and findings EPA used in 
making its 2008 preliminary decision to not regulate 
perchlorate.
    We found that systemic limitations in EPA's implementation 
of the requirements for determining whether additional drinking 
water contaminants warrant regulation have impeded the agency's 
process in assuring the public of safe drinking water. These 
limitations start with the contaminants that EPA chooses to 
assess for regulation. Specifically, EPA's selection of 
contaminants for regulatory determination in 2003 and 2008 was 
driven by data availability, not consideration of greatest 
public health concern, as specified in the statute. In fact, an 
EPA official described the agency's regulatory determinations 
as addressing the low-hanging fruit.
    Moreover, EPA has not been effective in obtaining 
occurrence of health effects data on contaminants, both of 
which are essential for regulatory determination. This program 
to test drinking water for unregulated contaminants has not 
tested as many contaminants as it could have. Also, in many 
cases, the testing methods have not been sufficiently robust to 
detect the contaminants at the level of public health concern, 
reducing the credibility of EPA's determinations. Information 
on the health effects of contaminants has also lagged due to 
longstanding challenges in the IRIS program and coordination 
issues.
    Importantly, EPA has not developed regulations, policies or 
guidance for interpreting the amendments' broad statutory 
criteria for selecting contaminants and making decisions on 
them. In the absence of guidance, EPA has been informally 
applying a policy that contaminants need to occur in drinking 
water on a national scale to warrant regulation.
    However, a national occurrence threshold is not required by 
the Safe Drinking Water Act, which in fact provides relief to 
public water systems for monitoring when a contaminant occurs 
in certain areas but not in others. We have concerns about EPA 
implementing a critical policy which interprets the Act and has 
important implications for the safety of public drinking water 
when this policy has neither been defined nor subjected to 
public review.
    Also, the credibility of some of the EPA's regulatory 
determinations is limited by a lack of transparency, clarity 
and consistency. For example, EPA states unequivocally in its 
regulatory determination support document that there is no data 
to indicate children are more sensitive to manganese than 
adults, but in its health effects support document discusses 
studies that do associate manganese in drinking water with 
learning disabilities in children. Our report details numerous 
other limitations that reduce the credibility of EPA's 
regulatory determinations, including making determinations on 
the basis of outdated and incomplete occurrence data, and the 
Office of Water's lack of protocol and methods for assessing 
drinking water health risks for children and other sensitive 
sub-populations, 15 years after the 1996 amendments required 
EPA to consider effects on such populations.
    Regarding perchlorate, we found that the process and 
analyses EPA relied on to support its preliminary determination 
to not regulate were atypical, lacked transparency and limited 
the agency's independence in developing and communicating its 
scientific findings. While EPA's 2011 decision to regulate 
perchlorate included an analysis on the potential health impact 
on children, addressing key shortcomings in the 2008 decision, 
it is not clear at this time whether EPA has committed to do 
such analyses in the future.
    We made 17 recommendations to support the development of 
transparent, clear and consistent regulatory determinations. An 
overarching recommendation is that EPA develop policies and 
guidance clearly articulating the agency's interpretation of 
the Act's statutory criteria as well as eight additional 
recommendations identifying specific components of this 
guidance.
    EPA's response to this recommendation was that it was not 
practical to establish policies or guidance, citing various 
complexities. However, the complexities cited would argue for 
rather than against the need to develop guidance for staff in 
applying the criteria.
    EPA also said it did not support developing policies or 
guidance because under the statutory criteria, it is the 
Administrator's judgment as to whether regulation presents a 
meaningful opportunity for health risk reduction after 
considering information presented by agency staff. The 
statutory criteria are so broadly stated that they could 
potentially be interpreted to support regulating all the 
contaminants on the candidate list, some of them or none of 
them.
    It is precisely for these reasons that we believe it is 
essential for EPA staff to have sufficient guidance on applying 
the criteria consistently and transparently, so that the 
Administrator's judgment can be based on sound and consistent 
information. Without such guidance, the basis for EPA's 
determinations and the quality of their support can fluctuate 
over time as a result of, among other reasons, changes in 
agency leadership and staff.
    In large measure, EPA's response to our recommendations 
essentially endorses conducting business as usual, a response 
that does not acknowledge the scope and significance of the 
implementation limitations we identified.
    I would be happy to respond to any questions that you or 
other members of the Committee may have.
    [The prepared statement of Mr. Trimble follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Senator Boxer. Thank you very much for your hard work.
    And now it is time to hear from the EPA, and Mr. 
Perciasepe, welcome.

  STATEMENT OF HON. ROBERT PERCIASEPE, DEPUTY ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. Thank you. Thank you for inviting me today, 
Chairman Boxer and Ranking Member Inhofe and members of the 
Committee here today to discuss EPA's drinking water program.
    Making sure that all Americans have water that is safe to 
drink is one of the fundamental elements of EPA's mission. I 
appreciate the Committee's and the Government Accountability 
Office's attention to the matter of the Safe Drinking Water 
Act. While EPA, under the leadership of Administrator Jackson, 
has made some key strides with the drinking water program, 
there is always room for improvement, and the GAO report makes 
some critical recommendations which we welcome.
    Strong science and the law are the foundation of our 
decisionmaking at EPA. We agree with GAO that our approach to 
drinking water regulation must be transparent, consistent, 
clear and driven by the need to protect public health. In 1996, 
Congress updated the Safe Drinking Water Act to improve the way 
we decide when a contaminant needs to be regulated. The new 
process was designed to assure that future standards focus on 
public health protection and are based on the best available 
science.
    Over the years, we have sought advice from a number of 
independent organizations on how to achieve this goal, 
including the National Academy of Sciences, the Science 
Advisory Board, and the National Drinking Water Advisory 
Council. Recommendations from these groups have contributed to 
a strong foundation for our program, and we continue to build 
on those past efforts. The draft GAO report makes it clear we 
have more work to do.
    Specifically, GAO provides recommendations about developing 
policies to interpret the broad statutory criteria that the 
Safe Drinking Water Act outline for making regulatory 
determinations. It is crucial that these criteria are 
transparent and protect vulnerable populations, particularly 
children. To achieve these goals, I have asked the Office of 
Water to consult with an independent panel of scientists on the 
process EPA uses.
    Specifically, they will consider how we evaluate 
contaminants against the criteria, how will we use the best 
available science to make a decision and how will we assess the 
greatest public health risk and how to consider vulnerable 
populations, especially children. We will make our regulatory 
determination process publicly available and we will review the 
process every 5 years as we conduct the regulatory 
determination cycle.
    Currently, we are in our third cycle of evaluating 
unregulated contaminants. In implementing this process, we are 
applying the lessons learned from the previous iterations. Our 
recent actions are consistent with many of GAO's 
recommendations. To ensure that we are best protecting public 
health, GAO recommends that EPA develop criteria to identify 
contaminants that pose the greatest risk. In our most recent 
contaminant candidate list, EPA used a significantly improved 
process. We cast a wide net to identify possible contaminants. 
And from this universe of more than 7,000 candidates, we 
narrowed the list down to 116 that represent the greatest risk. 
The multi-step process was science-based and informed by the 
public and independent science experts. All of the supporting 
information is available to the public. From within this list, 
we have identified the contaminants with enough data to make a 
decision in this cycle, and we are focusing our decision on 
those with the greatest public health concern.
    In order to have the occurrence data we need to make good 
decisions, GAO recommends that we improve our unregulated 
contaminants monitoring program. We agree with the GAO's 
recommendations . In March, we proposed our most recent list of 
contaminants for monitoring and we are taking full advantage of 
the statutory authority to test for 30 contaminants. We also 
proposed minimum reporting limits that are much lower than have 
been required in the past, making the data obtained more 
useful.
    This Administration also recognizes that we need to change 
the paradigm for determining and developing drinking water 
regulations to protect public health. We are implementing the 
drinking water strategy announced by the Administrator last 
year. In particular, we have established a focus on regulating 
multiple contaminants as a single group. By doing so, we can 
achieve public health protection more expeditiously and in a 
way that is more cost-effective for water utilities to 
implement.
    We are also focusing on fostering innovative drinking water 
technology, so that drinking water treatment is available and 
affordable. We are leveraging the authorities of multiple 
statutes to protect drinking water sources from contamination.
    In closing, Madam Chairman, protecting the resource of 
clean, safe water is one of EPA's highest priorities. We are 
committed to continually improving our methods and I look 
forward to working with this Committee and the GAO in our 
efforts to best protect the American people.
    Thank you.
    [The prepared statement of Mr. Perciasepe follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. I want to thank you very much, and say I 
think your response to this report is refreshing, that you are 
looking at it and embrace the notion of transparency, which is 
critical, science is critical.
    In September 2010, EPA released a draft scientific 
assessment that found that chromium-6 in drinking water is 
``likely to be a carcinogenic to humans.'' The agency said it 
expects to finish this assessment in 2011. Can you give us the 
date when you will complete this assessment?
    Mr. Perciasepe. That assessment we did last year was 
submitted for peer review. We just received a response from the 
peer reviewers and we are reviewing that. I would still think, 
depending on what depth we may need to go into, and I have to 
hedge the exact date here a little bit, based on the fact that 
we have not yet reviewed all the advice we got from the peer 
review. I think we are still on track to finish before the end 
of the year.
    Senator Boxer. Good. I am going to assume that unless I 
hear otherwise. We have had our problems with chromium-6. I am 
really glad that you moved forward on it.
    In February 2011, Administrator Jackson reversed a Bush 
administration decision not to regulate perchlorate with an 
announcement that EPA would move forward to develop a drinking 
water standard. I ask unanimous consent to place in the record 
comments from California urging you on in that regard.
    [The referenced information follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Perchlorate is a toxic contaminant that can 
harm children's development. I strongly support Administrator 
Jackson's decision. Could you tell me if EPA is moving forward 
with the process of developing a drinking water standard for 
perchlorate and can you assure me the agency will continue to 
use the best available science in crafting this standard?
    Mr. Perciasepe. Yes, I can assure you on both counts, Madam 
Chairman. We are moving ahead on the process that is initiated 
by making the regulatory determination. And of course, we are 
going to be looking at all the best available science, as we 
had it, to make the right determination and as we will continue 
to improve the science that is available as we go through the 
regulatory process.
    Senator Boxer. OK. Let me just say, given, I think, the 
criticisms that have come forward from the GAO, and the reality 
that so little has been done, the fact that you are moving on 
two contaminants out of so many, at least it is a start. So I 
am going to be watching very carefully to make sure that we 
don't get caught up in politics or anything else. This is about 
safety for our people. And we need to know. So I am going to be 
following those very, very closely.
    Deputy Administrator, the GAO found that ``EPA does not 
have criteria for identifying contaminants of greatest public 
health concern.'' They recommended that EPA develop ``criteria 
to identify contaminants that pose the greatest health risks.'' 
Will EPA develop such criteria, in order to determine which 
drinking water contaminants should be regulated, and ensure 
that the criteria are used in a transparent and accountable 
process?
    Mr. Perciasepe. What I mentioned in my opening statement is 
that EPA, it is sort of, things are going on in parallel here. 
In addition to the review that GAO has done, which has provided 
us meaningful input and good recommendations on transparency, 
we have also been in the process of trying to make those 
improvements at the same time. It is sort of, if you play ice 
hockey, it is sort of like changing the line on the fly, as 
they call it.
    Senator Boxer. Oh, wait a minute, that is my husband's 
domain. He loves ice hockey.
    Mr. Perciasepe. So you are familiar with that concept.
    Senator Boxer. I can barely follow the puck, but I think it 
is exciting. But could you say what you said again, so I can 
ask him when I get home? Say it again, I am serious.
    Mr. Perciasepe. Changing the line on the fly.
    Senator Boxer. Changing the line on the fly. Thank you. I 
will check it out with him when I get home.
    [Laughter.]
    Mr. Perciasepe. I apologize for bringing a sports analogy 
in here.
    But the point being that while GAO is looking at what we 
have done in the past, we are preparing the next round of the 
candidate contaminant list. And in doing that process, we have 
tremendously expanded this number of sources of science and 
data that we have looked at. And as I mentioned, we had almost 
7,500 different contaminants we look at. I am doing this, 
because it is sort of like the top of a funnel. And as you go 
down the funnel to what you might recommend for a regulatory 
determination at the bottom, we are building a very specific 
process that starts with the 7,000, looks at what we know about 
the severity of their health impacts, impacts on children or 
sensitive populations, occurrence information.
    And we are moving down that list. We have publicly produced 
a document. We have had public hearings on it, about how we 
went from the 7,500 down to a smaller number. And now what we 
are focusing on 116 of them, each step of the way we have laid 
out a deliberate process.
    Senator Boxer. OK, just to cut through, and I am going to 
give myself one more minute and give it to everybody else, the 
answer is yes?
    Mr. Perciasepe. Yes.
    Senator Boxer. The EPA is going to develop these criteria?
    Mr. Perciasepe. Yes.
    Senator Boxer. And you are going to make it public, and it 
will be transparent.
    Mr. Perciasepe. And we are building it off of this.
    Senator Boxer. OK. So my last question, and then I have a 
bunch I am going to ask you for in writing that are very 
important to me, the GAO found that 17 contaminants that have 
been on all three of EPA's lists of priority drinking water 
contaminants since 1998, and here we are, a long way from that, 
including RDX, or royal demolition explosive, which EPA has 
classified as a possible human carcinogen. The GAO raised 
concern with the potential lack of information that EPA has on 
some of these contaminants. We are talking about now a narrow 
list of 17 that have appeared on all these lists since 1998.
    Will you agree to have EPA brief my staff on the status of 
the agency's information collection analysis activities for 
each of those 17 contaminants? And also at that time describe 
when EPA expects to consider these contaminants for a 
regulatory determination?
    Mr. Perciasepe. Yes, of course. And I could add, I know 
that we are short on time, but a number of, a significant 
number of those are now on the final list that we are looking 
at in the current process. And a number of the other ones have 
been put on the unregulated contaminant monitoring list that 
David brought up in his testimony that we have expanded that 
list and will now get more data on them. So we are moving on 
pretty much all of those 17.
    Senator Boxer. Thank you, and I will get you all these 
other questions I have, and turn to Senator Inhofe for 6 
minutes.
    Senator Inhofe. Thank you, Madam Chairman. And I would hope 
in the future, Mr. Administrator, if you are going to use a 
sports analogy, for my benefit, use either football or 
baseball, so we would understand.
    [Laughter.]
    Senator Boxer. Or soccer is good.
    Mr. Perciasepe. Well, we have a spiritual soccer event 
earlier in the week.
    Senator Inhofe. It could have been that the Chairman asked 
this question during her first minute, because I was distracted 
during that time. But I would like to know if there is anything 
further you could say on how the EPA is going to address the 
concerns that were raised by the NAS formaldehyde report, 
specifically the systemic concerns raised by the IRIS risk 
assessment process.
    Mr. Perciasepe. In 2009, Administrator Jackson set in 
motion a number of improvements to the IRIS program to begin 
with. As you pointed out, maybe 10 years, where things had been 
allowed to perhaps lag for a while. So one of the things we did 
is improve some of the elements of the process. We have 
increased resources for it. And today our Assistant 
Administrator for the Office of Research and Development, Paul 
Anastas, is going to be announcing a next round of improvements 
to the IRIS process. And many of those improvements are on that 
same continuum we have been on now for a couple of years, and I 
think are very responsive to the advice we have gotten and that 
we appreciate also from the National Academy of Sciences.
    So I am optimistic, Senator, that we are moving on that 
proper continuum to make sure that very critical, and I think 
you said it as well as anybody could in your opening statement, 
how important that IRIS process is to our program.
    Senator Inhofe. OK, you are on that. As I said also in my 
opening statement, and you have heard me talk about this 
before, the concern that I have from my background as mayor of 
a major city in terms of the unfunded mandates. And again, I 
know other States have problems, too. I think Oklahoma 
certainly has great problems in our small communities.
    Now, it is my understanding that the EPA section 319 
program does help States in their implementation. Is this 
correct, in some of these programs?
    Mr. Perciasepe. I am not completely familiar with that 
question.
    Senator Inhofe. All right. Well, it is the EPA section 319 
program. It does provide funds for some States and local 
entities to comply with some of these mandates. Is that 
correct?
    Mr. Perciasepe. I think that--I am not familiar with 319. I 
probably know all the programs, but I don't know them by their 
numbers.
    Senator Inhofe. OK, well, I was given the information that 
some $27 million was transferred from that program to the 
program that is sent to China and other countries.
    Mr. Perciasepe. I am in the wrong law. It is in the Clean 
Water Act. Section 319 is in the Clean Water Act. I am familiar 
with that. That allows non-point source programs and State 
efforts on non-point source programs that can be used to do 
both source water protection and perhaps even wellhead 
protection in the proper context.
    Senator Inhofe. Well, I think it is significant to bring up 
this point. Because you will remember, although you weren't in 
your current position, when Republicans were the majority and I 
chaired this Committee, I was concerned that people didn't have 
access to where a lot of the money was going from the EPA, from 
the Environmental Protection Agency. And so we set up a data 
base. And this has been pretty successful. And just the other 
day, Chairman Upton, of a comparable committee over there in 
the House, was talking about the $718,000 that went to China's 
EPA to assist with control of air emissions. And it goes on to 
talk about some of the other countries.
    I just found this to be kind of mind-boggling that would 
take place. Is that incorrect? Because I know this would be the 
Assistant Administrator for International Affairs. But that 
person does answer to you.
    Mr. Perciasepe. I will have to look into that, Senator. I 
don't have any direct information at this particular moment on 
financial----
    Senator Inhofe. OK, rather than just take it for the 
record, if you don't mind calling me back to see if I'm wrong 
in this. Because if I'm wrong and if Congressman Upton is 
wrong, we are doing a disservice by talking about this.
    Mr. Perciasepe. I will make sure we get back to your office 
today.
    Senator Inhofe. That is all I could ask for.
    And I would say to you, Mr. Trimble, in your analysis, does 
EPA have all the statutory authority that they need to regulate 
contaminants of concern?
    Mr. Trimble. Sir, in our report and our recommendations, 
the deficiencies or the problems and the systemic problems we 
found were of a nature that we felt could be addressed strictly 
within the current authority. That is why our recommendations 
are to EPA, if we don't have a consideration for changing the 
statute, we believe that the EPA can take action quickly under 
existing authorities to define its policies and establish 
guidance, to interpret the statutes and implement them in such 
a way that it would be clear, consistent and provide a better 
product at the end of the day.
    Senator Inhofe. All right. Thank you very much.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you very much.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman.
    Mr. Perciasepe, the New Jersey State legislature recently 
passed a ban on hydraulic fracking in my home State. But 
Pennsylvania and New York are moving ahead with fracking 
activities that could affect New Jersey's water supply.
    Now, there is currently a loophole we are all familiar with 
in Federal law that exempts fracking operations from much of 
the Safe Drinking Water Act requirements. How does this 
loophole affect EPA's ability to prevent fracking contamination 
in one State from affecting the health of people in another, 
not unlike the winds that blow across our State from the west?
    Mr. Perciasepe. Let me just say that on the movement of 
water on the surface of the, when the water, when the fracking 
fluids are used or whether there is produced water out of a 
well, when the water comes to the surface, those are under the 
jurisdiction, if they are discharged to waters of the United 
States, those are under the jurisdiction of the Clean Water 
Act. And there are requirements for how it would be pre-
treated, or there would be State requirements on how it is pre-
treated if it goes into a sewage treatment plant, or if it is 
reinjected into the ground, that would be covered by the 
underground injection and control program.
    So on the surface, I think, Senator, the Clean Water Act 
would apply. The exemption is the regulation of the injection 
of the fracking fluids into the ground to conduct that 
operation. Those are not regulated, or that action is not 
regulated under the underground injection and control program, 
which is in the Safe Drinking Water Act.
    Senator Lautenberg. Well, a few months ago, I asked you 
about the air quality impacts of natural gas drilling. And in 
your testimony you said that natural gas drilling would lead to 
``an increase in emissions of volatile organic compounds and 
nitrogen oxide.'' But there was no offer of any concrete steps 
that EPA is taking to reduce these emissions.
    Is EPA taking any action now to address emissions from 
natural gas drilling?
    Mr. Perciasepe. I will mention two briefly, Senator. First, 
just in the last several weeks, EPA, the U.S. Department of 
Agriculture and the Department of Interior signed an MOU on how 
we would conduct air quality analyses on leasing programs, 
either in the national forests or on the Bureau of Land 
Management's land, which again, mostly is going to be out west. 
But we have now a multi-agency agreement on how we will analyze 
the air impacts and what requirements might be placed on the 
leases that are put forward.
    We just recently conducted that analysis on a lease that 
the Department of Interior, through the Bureau of Land 
Management, made in the Grand National Buttes in Utah. And 
those requirements, and the company there was Anadarko, those 
requirements are very progressive and forward-leaning. And the 
company is moving forward in that.
    Senator Lautenberg. When will we get something specific 
there to move on this? The studies are being done.
    Mr. Perciasepe. Right. So those requirements would be 
placed on those leases, and they would have to meet those 
standards. The second thing, though, that I want to mention, is 
EPA is also working on what under the Clean Air Act is called 
new source performance standards. So as a new well is produced 
or developed, it would be required to reduce the amount of 
volatile organic compounds that would be emitted while the well 
development is being conducted.
    So those proposals will be out later this year. And they 
will be in many ways similar to what we are requiring companies 
to do when they lease on Federal land.
    Senator Lautenberg. The concerns are real. But the pace 
seems fairly slow in doing something about it.
    Mr. Perciasepe. I appreciate that very much.
    Senator Lautenberg. In addition to individual pollutants in 
drinking water, people are often exposed to multiple 
contaminants. The interaction with each other can cause some 
health effects. Mr. Trimble, how might EPA consider the health 
effects of the combination of chemicals when they set drinking 
water contaminant limits?
    Mr. Trimble. I think that is an important issue. I think it 
goes to the heart of our recommendations, which is that the EPA 
needs to have guidance and policy and criteria to explain how 
such issues are considered in their decisionmaking. For 
example, when they make a decision, at the end of the day they 
need to explain was it considered, how was it considered. If 
they have a policy and it is an exception to that policy, they 
need to transparently and clearly explain all the factors that 
led them to the outcome that they arrived at.
    So I think we don't, we are not a science agency, so we are 
not making recommendations on how they should or shouldn't do 
these things. But from our standpoint, you need to establish 
the road map for the staff to follow in getting there. And then 
that road map not only guides your operations throughout your 
execution of this program, but at the end of the day, when you 
explain your decisions, it allows you to clearly articulate the 
basis for your decisions and credibly defend them.
    Senator Lautenberg. Chairman, there are so many questions 
that arise from this review, so the record is, I understand, 
will be kept open.
    Senator Boxer. Absolutely, the record is open. And Senator 
Inhofe wanted to make a request.
    Senator Inhofe. Yes, I want to make a unanimous consent 
request, I didn't know that hydraulic fracturing was going to 
be coming up. I would like to make an observation that the 
first hydraulic frack job was done 60 years ago in my State of 
Oklahoma and there has never been a documented case of ground 
contamination. I have a statement from some, about 15 other 
States, all the other States where this is a concern. I would 
like to have this put into the record, that states the same 
thing about their States as I stated about Oklahoma.
    Senator Boxer. Absolutely. That will be put in the record.
    [The referenced information follows.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. And now we turn to Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    I think one of the things that is so important as we deal 
with the agencies and things, especially in dealing with issues 
that really do affect our health, economic matters in the sense 
that, trying to conform to some of the things that we come up 
with literally will cost billions of dollars in some instances, 
that you have to have confidence in the system. Mr. Trimble, 
you talked about the agency performing tests where they were 
doing testing and maybe, I will put it in my terms and you can 
correct me, maybe they were testing for one part and then the 
test itself was only good to two parts. Sometimes only good up 
to 2,200 parts, and then making decisions based on that.
    Can you comment further on that?
    Mr. Trimble. Sure. In the decisions that they made in, I 
believe it was 2003, 2008, to not regulate about 20 
contaminants, I believe in 9 of those the testing data that the 
program had developed was not at a level sufficient to detect 
the contaminant at the point of concern. So exactly to your 
point, it wasn't robust enough to test it at the level of 
concern.
    That raises lots of issues. But what we talk about in the 
report, when we reviewed the determination in getting to the 
issue of the credibility, is that the impact of that limitation 
is either completely not addressed in the documentation 
explaining the decision, the determination decision, or it is 
buried. There could be other reasons why, maybe it is best 
available, maybe you have other data. But the issue and the 
basis for reaching a decision regarding sort of a big piece of 
this as well. So you have the problem with the testing program, 
but then you also have just the lack of explanation of, well, 
OK, you had this problem, how did you get to this point.
    Senator Boozman. You also have the problem, too, in the 
sense that you can have a false sense of security, can't you, 
in the sense that a test was supposedly performed and 
everything was OK?
    Mr. Trimble. Absolutely. In four of the decisions, they did 
not acknowledge that there was this limitation or the impact of 
that limitation on their conclusion that there was no health 
issue.
    Senator Boozman. So is that currently going on? Has that 
gone on recently?
    Mr. Trimble. Our review looked at the 20 decisions since 
the 1996 amendments. And in nine of them, we identified this 
issue. So that, I believe the last group we looked at was 2008.
    Senator Boozman. Can you comment on that? Is that currently 
still a problem, or in the recent years been a problem?
    Mr. Perciasepe. We feel, and I mentioned in my opening 
comments that we have modified our approach to looking at the 
unregulated contaminant monitoring that we are allowed to do. 
We are making sure that the testing that is done there, and 
these are the suite of contaminants that we are concerned about 
but that are not currently regulated, and we are trying to 
determine if their occurrence, as David just mentioned, is 
prevalent enough that it would be of concern. But you have to 
measure for the right level. And we are confident that we have 
modified our processes to be able to do that.
    Senator Boozman. Mr. Trimble, you talked about the three 
criteria for acting and went on to say that some of the people 
in the EPA, when interviewed, said there are no bright lines, 
that we will know it when we see it. Was that from scientists, 
or were these political people? How does anybody that is 
familiar with the scientific process, how do you deal with 
statements like that?
    Mr. Trimble. I would have to check who it was. But I think 
it was more the regulatory office. And the issue of the 
discussion was not seeing the need or not recognizing the need 
for guidance or a road map in terms of how you interpret this. 
It was sort of a we know it when we see it kind of decision. 
Again, the problem as you have pointed out is the credibility 
that leads to, where you can have, you may see it, I may see 
it, somebody else may see something different, you can have 
changes over time, changes between people. And that is the 
issue I was trying to get at.
    Senator Boozman. Yes, sir?
    Mr. Perciasepe. And I also want to point out that we are 
equally concerned with this and are happy to get this advice. I 
think how to solve this problem is probably open to a little 
bit of interpretation. GAO has laid out, I think, a thoughtful 
way to do it. We are in the process of trying to do it 
differently this time with developing our current list of 
contaminants that we are concerned about. We have gone through 
a very deliberate process that dissects those three large 
categories that are in the Act, like is there an adverse health 
effect. Well, we are looking at potency, we are looking at 
sensitive populations, and we are screening down to that. We 
also have to look at the occurrence data. We are looking at 
both regional as well as national data.
    The last step, and as I testified, the last step in the 
judgment of the Administrator is there a meaningful opportunity 
for a health risk reduction, well, we are proposing now, and 
what I have asked the water program to look into is the staff 
working on those first two, developing a report and then having 
that report subject to a peer review which asks these 
questions. And then the Administrator would have in front of 
her both the staff report on the adverse health effects and the 
occurrence or substantial occurrence data across the Country or 
regionally, and that judgment would be able to be also 
enhanced, by that peer review of that work that was done.
    So in that final step which is in the judgment of the 
Administrator, they would have both of those pieces of 
information together. And I feel that if we get that peer 
review to ask some of these questions, because there are so 
many different kinds of contaminants, that they will be able to 
see if the staff properly did the integration. However, we are 
learning from doing it differently this time, and we definitely 
want to have the criteria, as the Chairwoman mentioned, be 
clearly laid out.
    Senator Boozman. Thank you.
    Mr. Trimble. I would just note, we have not obviously 
reviewed the latest thinking and proposals. I am encouraged by 
the direction. I note a couple of things. One, the triaging of 
the contaminants of concern into the candidate list down to now 
the current list has about 116 contaminants. That is, EPA has 
indicated that is a prioritization, and it is. It is a first 
step.
    But 116 is not enough of a prioritization to guide your 
direction from there. In 2009, the Science Advisory Board also 
had a report encouraging EPA to prioritize.
    Senator Boozman. Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    Senator Cardin?
    Senator Cardin. Thank you, Madam Chair.
    Mr. Trimble, first, let me thank you for this work. I think 
it is extremely important. Mr. Perciasepe, I appreciate the 
attitude of EPA to make sure we get this right.
    It is very concerning when we know that we have had lists 
now of unregulated contaminants. And there has been 
inconsistency in the methods used to determine whether there 
should be regulation. Our bottom line is to protect the public 
health of the people of this Nation. They rely upon us to 
determine whether water is safe to drink. And we have a 
responsibility to make sure that in fact is being done.
    What was most disconcerting about the GAO report, you 
showed the listing of new contaminants for regulation, lacked a 
procedural safeguard, that there were different variations of 
assessment based on the chemical involved. So Mr. Perciasepe, 
let me just ask you first, to what extent do you think the 
variation of the assessment procedures from one chemical to 
another affects the reliability of the EPA determinations?
    Mr. Perciasepe. Well, Senator, there may be radionucleides, 
there could be viruses, there could be bacteria or other 
protozoans as well as chemicals. So all of them have different 
ways you have to analyze them. I think that there is a 
commonality of approach, though, when you start with a large 
list and you start looking at which one of those things on that 
large list has the most potential health effects, whether it be 
sensitive sub-populations or whether it be to the general 
population. And you keep narrowing that list down. David used 
triage, I would call it some deliberate screening.
    And I agree that you get that list down to 116, that is not 
enough. Because this is really the precursor to deciding what 
your priorities are to actually do a regulation on. So this is 
not itself a regulation, this is just deciding what to 
regulate.
    And I think it is important that we do the best job we can, 
publicly and with criteria and with disclosure on how we got 
that, including peer review. And then from that list, the 
Administrator has to decide. And we think the list will be 
smaller than 116.
    In this instance, we think it will be down to 30 or maybe 
less. And that is what we will ask the outside reviewers to 
say, do we have that list right, and did we ask these right 
questions. And then that is what would be in front of the 
Administrator, to make that determination.
    Senator Cardin. Can we learn something from perchlorate, in 
that it was included in the first uncontaminated chemical 
monitoring rule, so at least many years ago, there was at least 
some concern about it? Perchlorate is a toxic component of 
rocket fuel that may disrupt the production of thyroid hormones 
which are particularly sensitive for fetuses in young children. 
I know that the Administration is moving forward on 
perchlorate. Can you at least give us the status of where we 
are on that, and whether there is a lesson to be learned as to 
why we did not investigate this issue earlier?
    Mr. Perciasepe. Well, obviously it went through the process 
that I just described as it was designed in many respects in 
the detail that GAO looked at. But since that time, we have re-
looked at the science there. We looked at not just modeling of 
these physiological effects, but also the actual exposures to 
children and pregnant women. That forms some of the key basis 
for the Administrator making that determination that it is 
required to go through the regulatory process.
    So we are starting that regulatory process now, once that 
determination is made.
    Senator Cardin. What is the timeframe?
    Mr. Perciasepe. I have to say, with the proposal and then 
the final, it is probably going to be at least 2 years.
    Senator Cardin. And one of the questions I would raise, 
first of all, I think that is too long. But I understand the 
procedures you have to go through. You used the funnel example 
as to how many contaminants are listed, and you need to make a 
priority judgment as to which are the greatest at risk and what 
can be regulated effectively for public health.
    Perchlorate to me was too high up in that funnel, it should 
have been at a lower part of that funnel at an earlier stage, 
which I think is what the GAO report really, this is an example 
of the inadequate testing that was done earlier dealing with 
perchlorate. So I hope we have learned that lesson to get it 
down to the level of regulation earlier. And I would hope that 
you would work with us to streamline the regulatory process, 
because if the risk factors are to a vulnerable group, this 
requires us to act in a more expedited way.
    Mr. Perciasepe. I agree, and I think, I mean, I have worked 
with some members here today on that Safe Drinking Water 
Amendment in 1996, when I was in the government back in the 
1990's. We deliberately wrote into the law that the 
Administrator had to make a decision. They couldn't just keep 
analyzing, there had to be a decision made. I think that what 
has happened is that the transparency of that decision and the 
criteria used to get to that point, and the peer review of the 
staff and science that was being used in that final step by the 
Administrator to decide yea or nay on a regulatory 
determination, it is that point that got, I think, bent out of 
shape in the last time the determination was made. And I 
believe that having a peer review at that particular moment 
will, you never solve every problem, but it will, I think 
provide more transparency to why and if the Administrator is 
making decisions based on the most current science.
    Senator Cardin. Thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Udall, welcome.
    Senator Udall. Thank you, Senator Boxer, and thank you for 
holding this important hearing.
    First, on behalf of the residents of northern New Mexico, I 
would like to say thank you to the EPA, represented here by 
Deputy Administrator Bob Perciasepe. The EPA provided really 
important emergency air monitoring resources, including their 
ASPECT plane to monitor air quality during the largest forest 
fire in New Mexico's history, which threatened Los Alamos 
National Laboratory and many other areas in New Mexico. Those 
air monitoring results, the independence of them, the State 
looked at things, EPA looked and the lab had their numbers.
    But these air monitoring results we have seen so far show 
no unusual pollution beyond what would be in a normal forest 
fire, and EPA's independent presence on the ground and in the 
air was of great value, I think, in providing the public with 
credible information. So I thank you for that.
    On the topic of today's hearing, several witnesses, 
including the GAO, observed that the EPA has not fully taken 
into account the impact of unregulated drinking water 
contaminants on children's health, I know Senator Cardin 
mentioned this earlier, as required by the Safe Water Drinking 
Act and the agency's policy on children's health. And 
perchlorate, in particular, is one that concerns me in the 
decisionmaking on perchlorate. Perchlorate is an unregulated 
contaminant found in many drinking water systems in the west, 
which is home to many of our Nation's major military 
facilities. New Mexico's communities are proud to host our 
Nation's armed forces, but all communities, I think, deserve 
clean drinking water.
    Just as with forest fires, we are counting on EPA to 
provide accurate, independent scientific information and take 
the appropriate action.
    So let me first start with Mr. Trimble on this issue of 
children's health and the overview of the work you did. Could 
you please describe the safe Drinking Water Act and the EPA 
policy requirements on considering children's health impacts in 
drinking water standards, and then two, describe your report's 
findings on how EPA met these requirements, and three, describe 
how recommendations you made relate to those children's health 
requirements.
    Mr. Trimble. Sure. First, the requirement to prioritize 
contaminants of greatest concerns includes a provision that 
prioritization should include impacts on children and other 
sensitive sub-populations. So that is sort of square one, that 
is part of the prioritization. And again, it goes to the 
recommendation we have regarding how you establish that 
priority list.
    In observing how that has been implemented with EPA and our 
work in doing those determinations has not integrated specific 
risk assessments for children as part of its determinations. In 
2003, in the determinations they made to not regulate 
additional contaminants, it acknowledged that it did not have 
the methodology to address the impact on children, but did not 
then make any other explanation as to how they were going to 
figure out whether this was protective of children's health.
    In 2008, they made additional determinations where they 
acknowledge that these contaminants had an effect on children's 
health, but they did not explain in their analysis how that 
potential risk was addressed in their analysis, and how their 
conclusion that these contaminants did not need regulation was 
protective of children's health.
    In perchlorate, similar concerns were raised about 
children's health. In fact, that is one of the reasons why the 
decision was reconsidered, was concerns about uncertainty as 
well as the impact on children. What I would note in that 
regard is while the EPA, from my understanding, has decided to 
regulate perchlorate, it is not clear at this point whether the 
additional analysis it did in reconsidering its decision for 
perchlorate will be carried forward in future determinations. 
So in other words, are they going to integrate that analysis 
and the impact on children in future determinations. It is 
still a little unclear from what we have been given whether 
that would happen.
    Senator Udall. Thank you.
    Mr. Perciasepe, could you please respond to what we have 
heard from the GAO on children's health and what will EPA do to 
implement GAO recommendations in this area?
    Mr. Perciasepe. We feel that we are required by law under 
the Safe Drinking Water Act to consider the sensitive 
populations. I won't read it, I have it sitting here in front 
of me, but I can guarantee you that it is in the law and it is 
clearly laid out, and the GAO has pointed this out clearly, 
that we should be making a clear analysis. It depends on what 
the health effect of the substance is. I would have to say some 
may not have an impact on children in the same way.
    But it doesn't negate the need to do it. So we would be 
agreeing with that assessment that we need to be doing that. 
That is going to be also part of our overall screening process 
of even when it gets down to being looked at as a hard 
contaminant. For instance, we have a contaminant on our current 
list, a subset of that 116 we mentioned earlier, for instance, 
strontium, which has a very important negative effect on bone 
development, particularly in children. So that is one that is 
on the list particularly because of children.
    Senator Udall. Thank you. Thank you, Madam Chair.
    Senator Boxer. Thank you. And Senator Udall, thank you for 
all your work on children's health. This is so critical, 
because we have a responsibility to them.
    I just want to thank the panel very, very much, GAO for 
your clarity. I think this report was very good. And I think it 
should be embraced by everyone, because what you are basically 
saying is transparency in these decisions, move quicker on 
these decisions, and get it done. And I applaud the EPA for 
your response, which is, we hear you. I just want you to know, 
we are watching on chromium-6 and perchlorate. I am looking 
forward to that briefing.
    And by the way, anybody else who wants to hear the briefing 
on these 17 contaminants that have been looked at since 1998 
and nothing has been done, we are going to have a briefing. We 
just might do it as an open briefing, but I will let you know 
about that.
    Mr. Perciasepe. OK, we are ready.
    Senator Boxer. Well, we appreciate it so much. We really do 
appreciate it. And even your sports analogies which drew our 
interest.
    [Laughter.]
    Senator Boxer. Thank you very much.
    Mr. Perciasepe. I will remember to use football the next 
time.
    Senator Boxer. Football, baseball, soccer, that is fine. It 
is good. Women's soccer in particular would be good.
    [Laughter.]
    Senator Boxer. OK, panel two. Dr. Lynn Goldman; A.W. 
``Butch'' Araiza; Dr. Joseph Cotruvo; Dr. Steven Patierno; and 
Dr. Jeffrey Griffiths. And each of you will have an opening of 
5 minutes. And at that point, I will ask you to put the 
remainder of your statement in the record. So if you could 
summarize.
    We are going to start with Lynn Goldman and we are going to 
move down the table, if that is OK. So Dr. Lynn Goldman, 
welcome, American Public Heath Association, Dean of the School 
of Public Health and Health Services, and Professor of 
Environmental and Occupational Health, George Washington 
University. We are very delighted that you are here, thank you.

  STATEMENT OF LYNN GOLDMAN, MD, MPH, AMERICAN PUBLIC Health 
  ASSOCIATION, DEAN OF THE SCHOOL OF PUBLIC HEALTH AND HEALTH 
SERVICES AND PROFESSOR OF ENVIRONMENTAL AND OCCUPATIONAL Health 
              AT THE GEORGE WASHINGTON UNIVERSITY

    Dr. Goldman. And thank you very much. It is my pleasure to 
testify about the Environmental Protection Agency's 
implementation of the Safe Drinking Water Act's unregulated 
drinking water contaminants program on behalf of the American 
Public Health Association.
    I have been a member of the APHA for almost 20 years. I am 
pleased to represent them today. The APHA is dedicated to 
protecting all Americans and their communities from 
preventable, serious health threats and assuring community-
based health promotion and disease prevention activities and 
preventive health services are universally accessible in the 
United States. APHA has long advocated for strong environmental 
health laws.
    Safe drinking water is essential to public health, and our 
Nation's drinking water supply is one of the safest in the 
world. Along with the EPA, our Nation's State and local health 
departments also play a critical role to ensure the safety of 
our drinking water. Additionally, there are more than 170,000 
public water systems providing water.
    While most of our drinking water does not violate EPA 
standards for maximum contaminant levels, the APHA is concerned 
over a number of public health issues. First, we are concerned 
about the decline in Federal resources to State to improve 
drinking water infrastructure. In fact, the final 2011 
continuing resolution, and I have heard possibly the 2012 
budget as well, is cutting significant amounts of money, 
hundreds of millions of dollars, from the EPA's Safe Drinking 
Water State Revolving Fund.
    Second, we are concerned about unregulated contaminants. 
Tens of thousands of chemicals are on the market, but the vast 
majority of these will never appear in finished drinking water. 
Those that are in drinking water should be regulated by EPA so 
the public can be assured that levels are safe.
    A number of specific chemicals have been of concern to the 
APHA, including perchlorate, chromium-6, trichloroethylene and 
other volatile organic chemicals, and a number of pesticides 
and disinfection products found in drinking water across the 
Nation. APHA expected that the 1996 Safe Drinking Water Act 
amendments would have increased the number of chemicals that 
were regulated by EPA. Unfortunately, EPA did not adopt new 
drinking water safeguards for chemicals after that law was 
passed. And a recent study by the Environmental Working Group 
reported that hundreds of unregulated contaminants are found in 
our drinking water systems.
    Why do we need to have MCLs? Minus the establishment of 
MCLs and health-based MCL goals, how are we to know that the 
levels of chemicals in drinking water are safe? In response, 
several States have undertaken drinking water regulation of 
unregulated contaminants, for example, the State of California 
regulating perchlorate, chromium-6, TCE, several VOCs and 
pesticides. But only national standards can assure safe 
drinking water across our entire Country.
    Third, we are concerned that EPA standards not only protect 
the average adult but also adequately protect infants and 
children, the frail elderly and those with weakened immune 
systems. As a pediatrician, I am particularly concerned about 
infants less than 6 months of age who receive drinking water in 
infant formula. These infants consume five times more drinking 
water per body weight than adults. They therefore have greater 
exposure to any substance in drinking water than adults would. 
And yet, we also know that at these life stages that they may 
be more sensitive, less able to metabolize, detoxify and 
excrete toxic substances, as well as more sensitive to 
developmental effects, effects on growth and development.
    The 1996 Safe Drinking Water Act amendments directed the 
EPA to protect the general population, as well as those 
significant sub-populations. This authority needs to be 
exercised by the EPA in the regulation of unregulated 
contaminants.
    In conclusion, APHA suggests a number of ways that EPA 
could strengthen the regulation of chemicals in drinking water. 
EPA does need to implement the 2009 National Academy of 
Sciences report, Science and Decisions Advancing Risk 
Assessment, especially the recommended changes in risk 
assessment design, dose response modeling, uncertainty analysis 
and analysis of cumulative risk. Cumulative risk is not only 
the risk of multiple chemicals that might act in the same way, 
but also the risks that people have in other exposures in daily 
life that create public health threats like nutrition, exposure 
to smoke, other carcinogens.
    EPA needs to develop MCLs for unregulated toxic chemicals 
and pesticides that are present in drinking water so that the 
public can be confident of safety. And third, EPA needs to 
strengthen its efforts to protect vulnerable populations such 
as infants and children and pregnant women from risks of 
drinking water contaminants.
    Thank you for the opportunity to testify this morning, and 
I am happy to answer any questions.
    [The prepared statement of Dr. Goldman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Thank you, Dr. Goldman. I think that 
cumulative risk issue is key. I thank you for bringing it up.
    And it is my pleasure to introduce Mr. A.W. ``Butch'' 
Araiza, General Manager of the West Valley Water District in 
the Inland Empire, my State. It has been my pleasure to work 
with them. They face some tough issues and we look forward to 
hearing from him.

STATEMENT OF ANTHONY ARAIZA, GENERAL MANAGER, WEST VALLEY WATER 
                            DISTRICT

    Mr. Araiza. Thank you, Chairman Boxer and Ranking Member 
Inhofe and members of the Committee. It is an honor to be asked 
to testify today about the West Valley Water District's success 
in removing perchlorate from groundwater.
    I would first like to communicate my profound thanks to 
Senator Boxer. Over the years, you and your staff have been key 
in helping us secure Federal funding for our remediation 
efforts in helping encourage the Environmental Protection 
Agency and the Department of Defense to aid in treatment of 
contaminated water in our region. West Valley Water District's 
success is very much your success as well. Thank you.
    By way of introduction, I have been employed by the 
District for the past 48 years. I worked my way up through the 
ranks to the position of General Manager nearly 16 years ago. 
In 2002, the District became the lead agency in Inland Empire 
Perchlorate Task Force, which is responsible for coordinating 
the investigation and response to the serious perchlorate 
contamination crisis in our area.
    West Valley Water District was founded almost 60 years ago. 
Today, we serve almost 20,000 homes and businesses. Our staff 
and board of directors are dedicated to protecting, 
safeguarding and delivering clean water to our customers at the 
lowest reasonable price. The necessity to innovate was 
presented clearly by our need to remediate the effects of 
widespread perchlorate pollution in the inland empire. The 
source of that pollution is a 160-acre industrial site in 
Northern Rialto that used to be a U.S. Army munitions depot. 
The State of California has set a limit of perchlorate of 6 
parts per billion.
    But the plume migrating from the site has led to levels as 
high as 800 parts per billion. This has forced West Valley 
Water District and other water providers in the area to shut 
down or otherwise restrict the use of at least 22 groundwater 
production wells, representing more than half the region's 
water supply. Additional groundwater production wells may need 
to be shut down as pollution continues to migrate. We have no 
choice other than to remediate. Groundwater is the main source 
of drinking water in the region and alternative sources are not 
reliable. Estimated costs for cleaning up the whole problem 
would be in the hundreds of millions of dollars and could take 
up to 30 years.
    Meanwhile, remediation poses a significant burden to the 
ratepayers in one of the most economically disadvantaged 
regions in the Nation. Facing this crisis and lacking the vast 
resources required to solve it, West Valley Water District has 
looked to innovative solutions. We were fortunate to find that 
the Department of Defense's Environmental Security Technology 
Certification Program, ESTCP, and its extremely capable 
executive director, Dr. Jeffery Marqusee. Under the leadership 
of Dr. Marqusee, ESTCP is demonstrating the most innovative and 
cost effective technologies that address DOD's high priority 
environmental requirements. Our work with ESTCP is a win-win 
partnership, providing our customers clean water while 
collecting data that the ESTCP uses to advance cost-effective 
technology.
    The District's perchlorate remediation efforts start in 
2003, utilizing technology known as ion exchange. We are 
currently running five ion exchange systems, one of which is 
cutting edge and was made possible by the ESTCP. Ion exchange 
systems work by trapping perchlorate and resin, and our 
experience has proven them to be safe and reliable.
    With the support of ESTCP and the State of California, we 
have recently broken ground on the first facility to use 
naturally occurring biological process to treat drinking water. 
Bioremediation allows natural process to break down perchlorate 
and other harmful chemicals in the water. Bioremediation has 
proven safe and effective, does not use harmful chemicals and 
requires less annual maintenance than other methods. Our 
project will provide clean tap water to our customers and 
opportunities for ESTCP to save the Department of Defense 
significant amounts of money at sites they may have liability 
for across the Country.
    We are proud to provide a venue for demonstrating this 
pioneering green technology. It should not surprise you that 
West Valley Water District is not going to stop working toward 
the future, now that the bioremediation project is underway. We 
anticipate this project will become a component of a much 
larger undertaking to fully restore the region's groundwater 
supplies. The District is currently working with the United 
States Environmental Protection Agency, the State of California 
and parties responsible for the contamination to develop a plan 
for final phase of groundwater clean-up. This is a lot of work 
yet to be done, and we are looking for more innovative 
solutions, just as we have been for the past 60 years.
    Thank you for this opportunity to testify to the Committee, 
and I would be happy to take any questions.
    [The prepared statement of Mr. Araiza follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Boxer. Thank you very much, and we welcome our next 
speaker, Dr. Joseph Cotruvo, it is Joseph Cotruvo and 
Associates, LLC, Water, Environmental and Public Health 
Institute. Welcome, sir.

   STATEMENT OF JOSEPH A. COTRUVO, PH.D., PRESIDENT, JOSEPH 
                     COTRUVO AND ASSOCIATES

    Mr. Cotruvo. Thank you, Chairman Boxer and Senator Inhofe. 
I appreciate the opportunity to come and talk to you today.
    My name is Joseph Cotruvo. I have spent more than 35 years 
in public health matters. The doctorate is in physical organic 
chemistry. I was the first Director of EPA's Drinking Water 
Standards division back about 35 year ago when the law was 
passed, and spent a number of years there. In the course of 
that, I was involved in developing many of the existing 
regulations and in fact, many of the methodologies that are 
used for regulating.
    The regulations are very comprehensive. We will talk about 
more of them later. Currently I work internationally on water 
quality and health. I do some non-U.S. Government assistance on 
regulatory activity and water quality. I serve on a number of 
advisory committees, including World Health Organization's 
guidelines for drinking water quality, which is actually what 
the rest of the world, outside the United States, uses for 
establishing its drinking water safety.
    I am also a member of the D.C. Water and Sewer Authority 
board of directors here. I just want you to know, I am not 
representing any organization or institution. These are my 
personal thoughts, conclusions, and I am not receiving any 
compensation for this presentation.
    On the topic of drinking water quality and safety, almost 
all community water systems in the United States produce safe 
drinking water, including Washington, DC, although some may not 
believe that. It is a daunting task, because we are dealing 
with 65,000 water supplies, 25 persons up to millions. And it 
is a very complex job that is a multi-faceted job. EPA has a 
role, States have a role, and of course, it is all underpinned 
by those guys that are out there every day, 24-7, producing 
that water at the tap.
    Overall, I think EPA has done a generally good job of 
implementing the Safe Drinking Water Act. The record shows that 
reported waterborne infectious disease outbreaks have declined 
since the implementation of the law. And the portion of 
outbreaks due to distribution systems and infrastructure has 
increased. So overall, it has declined, but that part has gone 
up. That tells us very clearly that the problem is 
infrastructure, it means that water going in from the plant 
better than the water that it coming out at the tap.
    So fixing that and maintaining is, I think, really the 
greatest public health challenge that we have to face here, and 
the greatest public health concern.
    The current regulations are very comprehensive. They cover 
a number of substances, 81 MCLs, microbial contamination, which 
basically covers all microbial contaminants, radionucleides all 
are covered. There is corrosion control, there are some 
specific items also. But the numbers even belie the reality in 
that they actually cover much, much more than just those 
numbers, because all those regulations, or many of them in fact 
have a cascade of other substances that are protected against 
by the regulation that is in place.
    Regulations have to be protected. They are designed to be 
protective. They have certain safety factors built in, and that 
is what we expect. But it is of course important that they have 
to be realistic, and they have to be appropriate for the kind 
of risk involved, and the significance, and in fact, the 
strength of evidence that there is really a risk involved. That 
is why part of the task that EPA has is so difficult. Because 
with all of these new analytic methods, as you heard from the 
GAO, methods keep getting lower and lower. We used to talk 
about parts per million, now parts per billion, now parts per 
trillion, and next year it will be parts per quadrillion, 
probably.
    So what all that means is we are finding more and more 
substances. It doesn't mean that there are more there than were 
there 5 years ago or 10 years ago or whatever. It is just we 
are finding them now. Invariably, when one is measuring 
something at levels that are that low, it is really hard to 
conceive that there is some significant risk from exposure at 
that minute level.
    Just to put some things in perspective a little bit, I have 
a couple of items here mentioning reports on perchlorate and 
pharmaceuticals. I will just read you the report that came this 
year from the UNFAO, WHO, JECFA Committee: ``The estimated 
dietary exposures of 0.7 micrograms per kilogram per day, 
highest, and 0.1 microgram per kilogram per day, mean, 
including both food and drinking water, are well below the 
provisional maximum tolerable daily intake. The committee 
considered that these estimated dietary exposures were not of 
health concern.''
    So there are differing points of view that one has to deal 
with in this business. And that makes all of our jobs and EPA's 
very difficult.
    [The prepared statement of Mr. Cotruvo follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Boxer. Your time has passed, and we need to move 
on. We thank you.
    Dr. Steven Patierno, we are glad that you are here. And let 
me give your background to the folks. Executive Director of the 
George Washington Cancer Institute. We are very happy you are 
here. And is also Vivian Gil here with you?
    Mr. Patierno. I am sorry?
    Senator Boxer. Is Vivian Gil here with you?
    Mr. Patierno. No. Vivian Gil is a historical donor to the 
George Washington University endowing a professorship, which I 
hold.
    Senator Boxer. Aha, that is what I was going to say. It 
says, this is so funny, it says Vivian Gil Distinguished 
Professor of Oncology, so I thought she was a distinguished 
professor.
    [Laughter.]
    Senator Boxer. But we have you, and you are the 
distinguished professor. So we are thrilled that you are here. 
Go ahead.

  STATEMENT OF STEVEN R. PATIERNO, PH.D., EXECUTIVE DIRECTOR, 
           GEORGE WASHINGTON UNIVERSITY CANCER CENTER

    Mr. Patierno. Before I start, I would like to also quickly 
apologize for the length of my comments. I only found I was 
invited to attend this on Friday and just didn't have time to 
hone this down to exactly 5 minutes, as some of my colleagues 
have.
    Senator Boxer. We don't have a choice, because we need to 
go on. So please, go ahead. Do your best.
    Mr. Patierno. Madam Chairman, Ranking Member Inhofe, and 
members of the Committee, thank you for this opportunity to 
address you today. As you have heard, my name is Steve 
Patierno, I am the Director of the GW Cancer Institute. I am 
also a professor of pharmacology and physiology in the School 
of Medicine and a professor of environmental and occupational 
health in the School of Public Health.
    I have been conducting research for over 31 years on 
hexavalent chromium, 23 of those funded by the National 
Institute of Environmental Health sciences and the National 
Cancer Institute. I have published many papers, served on many 
review committees. I would also like to disclose that although 
I have never worked for, consulted directly for any company 
associated with any chromium-related industry, over the course 
of 30 years of working in chromium, I have on seven occasions 
served as an expert for the defense in chromium litigation.
    A recent release issued by the Environmental Working Group 
entitled Chromium-6 in U.S. Tap Water reported that very low 
levels of hexavalent chromium were found in drinking water in 
31 U.S. cities. Most of the cities with the highest of these 
low levels of ambient chromium-6 have little or no proximity to 
any chromium-related industry, indicating that these levels 
likely constitute a natural background, results that are 
neither new nor unexpected. The report and the associated media 
coverage, which was purposeful in referring to chromium-6 as 
the carcinogenic Erin Brockovich chemical, has caused 
unnecessary fear and alarm, as these levels constitute no 
health risks to humans.
    It should be stated that there is a vast literature on 
occupational and industrial exposures to high doses of chromium 
compounds for long periods of time, a large literature on 
animal studies and defined systems. Valid conclusions are only 
drawn when complementary data come together and fundamental 
principles and practices of pharmacology and toxicology must be 
factored into an accurate analysis.
    Taken together, the consistent message is that only long-
term high dose exposures to chromate dusts, as encountered in 
the chromate production pigment and plating industry have been 
associated with human cancer, and only for cancers of the 
respiratory tract. The same studies also showed there was no 
consistent association with any increased risk of other 
cancers. This is attested to by every major government 
international agency review ever written.
    All three major areas of risk related study, epidemiology, 
animal studies and cell culture provide clear evidence for very 
high threshold levels for both toxicity and carcinogenicity. 
And in fact, epidemiologic studies can identify no effect 
levels despite long-term occupational exposures that are 
factored over a 45 year work history. Likewise, published meta-
analyses, investigated gastrointestinal tract cancers, and all 
of this analysis shows no significant risk in malignancy for 
any GI site.
    An often overlooked fact is Dr. John Morgan, an 
epidemiologist working for the State of California Cancer 
Registry has been tracking cancer incidence in the town of 
Hinckley, California, the Erin Brockovich town, for the past 15 
years. And he recently reported that not only is there no 
excess of total cancer or any specific type of cancer in 
Hinckley, there is actually fewer cancers than expected.
    Evidence for a very high threshold level for chromium 
carcinogenicity is found in the recent NTP animal studies where 
rodents were administered very high concentrations of chromium-
6 in the drinking water continuously for 2 years. Tumors were 
only observed at the two highest doses, and they were so high 
the water was unpalatable to rodents. And they resulted in 
long-term chronic tissue damage. There is a figure in my 
comments. I would ask you to note the sharp high-dose threshold 
for toxicity and that no toxicological effects were observed, 
even at doses that are nearly five orders of magnitude, 100,000 
times higher than the average tap water concentration reported 
in the EWP report.
    Despite Hollywood depictions, chromium-6 is not potent as 
either a toxic or a carcinogen. Enormous quantities of chromium 
are needed to evoke any kind of toxicity in humans or animals. 
This is because humans have a many-tiered, innate mechanism of 
protection against chemical toxicities of any sort, including 
chromium. It is critical to understand that chromium compounds 
exist in two forms, a trivalent form, which is an essential 
element required for human physiology, and a hexavalent form. 
Hexavalent chromium is very, very rapidly and completely 
reduced to trivalent chromium by a number of protective 
mechanisms and fluids in the human body. And recent studies 
have shown that this conversion takes place in less than a 
minute.
    If it does reach a cell, there are intra-cellular 
mechanisms of protection that prevent it from directly 
interacting with DNA. So it is not correct to assume that if a 
vanishingly small amount of hexavalent chromium reaches a cell, 
it automatically becomes carcinogenic.
    [The prepared statement of Mr. Patierno follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
   
    
    Senator Boxer. Thank you very much, sir.
    We are going to move to our final witness, Dr. Jeffrey 
Griffiths, Associate Professor, Department of Public Health and 
Community Medicine at Tufts.

   STATEMENT OF JEFFREY K. GRIFFITHS, MD, MPH AND TM, CHAIR, 
  DRINKING WATER COMMITTEE, SCIENCE ADVISORY BOARD OF UNITED 
  STATES ENVIRONMENTAL PROTECTION AGENCY, PROFESSOR OF PUBLIC 
  HEALTH AND OF MEDICINE, TUFTS UNIVERSITY SCHOOL OF MEDICINE

    Dr. Griffiths. Thank you, Chairman Boxer and Ranking Member 
Senator Inhofe, members of the Committee. Good morning. I 
really appreciate this opportunity to testify.
    My name is Jeff Griffiths, I am actually a professor now at 
Tufts University. And I am Chair of the Science Advisory 
Board's Drinking Water Panel which advises the U.S. EPA. I am 
trained as a physician, internal medicine, pediatrics, 
infectious diseases, epidemiology. Relevant to this, I have 
been involved in regulation for about 15 years of drinking 
water contaminants. In fact, I was a member of both the 
National Academy of Sciences panel which recommended some 
changes in the way the EPA looks at unregulated contaminants, 
as well as the National Drinking Water Advisory Committee when 
it also then chewed on that report and then made some 
suggestions to the EPA.
    So I would just like to comment a bit on some of the ways 
in which I see there needs to be a sea change in the way these 
things are looked at. One of the things that is really 
important to acknowledge is there is a sea of new chemicals out 
there that we are finding. We are just finding more and more 
and more of them as detection capacity increases. 
Unfortunately, health effects data is really hard to get. It is 
expensive, it is time-consuming, et cetera. So we really only 
have health information on a small number of contaminants.
    So this, I think, means that the number of chemicals has 
essentially outstripped our capacity to get health information 
very easily.
    The second point that I would like to make along that line 
is of course that the health effects differ, depending on who 
you are. If you are a baby or pregnant mother or something like 
that, it is going to differ depending on what population you 
are part of.
    The next point that I would like to make is the need for 
transparency and a good public process. It forms a good, robust 
scientific basis for decisionmaking, because that means that 
things are out in the open. And also some confidence on the 
part of the public in terms of accepting the conclusions that 
are made about these compounds. And I would just comment that 
the 1998 contaminant list was considered quite murky and relied 
on expert opinion. You are going to hear a diversity of expert 
opinions about these contaminants. So I think the transparency 
is really important.
    I just wanted to go through the perchlorate story a little 
bit, because it seems to me that kind of illustrates these 
points. First off, we didn't really know that perchlorate was 
in the water until detection capacity improved. That happened 
in the 1990's. So then suddenly people were finding perchlorate 
everywhere. So that means that monitoring and actually, good 
monitoring is really critical.
    The second point that I would make along that line of the 
perchlorate story is that it has been known for a while that 
perchlorate affects thyroid function. But because of the 
interest in perchlorate there were new studies done, there is 
new animal data. And some of that animal data, for example, 
suggests that perchlorate acts on thyroid function in a 
different way than we had thought and at lower levels.
    So that is consistent, in fact, with data that was 
accumulated by the CDC in doing a study of nearly 3,000 people 
where they found that women living in Atlanta and throughout 
the Country had less thyroid hormone in their system if they 
had more perchlorate in their system. So there seemed to be 
some kind of an inverse relationship. So if you are exposed to 
perchlorate, you may have lower thyroid levels.
    And then I think that illustrates the point that once 
something gets on a list, it means there is going to be more 
science done about this thing. So it has to make it onto the 
list.
    The last point that I would like to make in this story is 
that if we didn't know anything about a specific sensitive 
population with perchlorate, we might have less concern. That 
is because perchlorate is concentrated in breast milk. So when 
a mother is nursing, she may be delivering high levels of 
perchlorate. And sort of perversely also less iodine than the 
baby needs. If you didn't look at that particular population, 
you wouldn't know this.
    And I have some data in here about that in my remarks. But 
the key thing is that by looking at a susceptible population, 
suddenly there is this new information that goes, ah, OK, so 
this is a group that is more susceptible not only inherently 
but because of the way mom delivers breast milk. So I think it 
is a really critical thing that there be data collected from 
susceptible populations.
    I want to comment that there were many people such as 
myself who were surprised that perchlorate was not identified 
for regulation in 2008. It was a controversial decision. And 
many people thought there was a lack of transparency around 
that. And that goes to the original point that I made, that 
transparency is really crucial in this.
    Drinking water contaminants are really high on the public 
discourse, and I think there are four things that have to be 
done. We have to look at groups of compounds for regulation. We 
need to devote sufficient resources, so that we can monitor 
these compounds. We have to look at health effects, both in the 
general population and in the susceptible populations. And 
last, the whole process has to be transparent, because this 
will maximize scientific credibility and public confidence.
    Thanks very much.
    [The prepared statement of Dr. Griffiths follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Senator Boxer. Thank you.
    Senator Inhofe has asked if he can ask his questions first.
    Senator Inhofe. Mine will be very, very brief. I do have a 
lot of questions I want to ask for the record that I will be 
submitting.
    Dr. Patierno, I know that you have done extensive research 
into chromium-6, with particular emphasis on the carcinogenic 
and mutagenic efforts. As you know, my constituents in Norman, 
Oklahoma are very much concerned about this. I just wanted to 
get your expert opinion. First of all, is chromium-6 mutagenic? 
And second, are my constituents at health risk from drinking 
water at the low levels of chromium? I am talking about Norman, 
Oklahoma now, because I think you are aware of what is going on 
there.
    Mr. Patierno. Yes. Thank you for the question, Senator 
Inhofe. The question of whether hexavalent chromium is 
mutagenic has become a very interesting question. Those of us 
who work in DNA damage and carcinogenesis have known for years 
that in carefully contrived experimental conditions, we can 
force virtually any chemical to become carcinogenic, or excuse 
me, mutagenic. We have been concerned for a long time that in 
order to detect mutagenicity after exposure to chromium, one 
has to use enormous concentrations that actually kill the vast 
number of cells or tissue cells that get exposed.
    We have always been concerned about that. Recent studies 
have gone back in, actually sequenced the DNA sequence of the 
genes that we thought had been mutagenized, and found that the 
DNA sequence is still intact. And that has led to a current 
understanding, or an emerging understanding, that despite the 
fact that you can force chromium-6 to get into cells at very 
high doses and damage DNA, or bind to DNA, it appears that the 
mode of action is that we are killing cells and selecting for 
survivors.
    So that has raised very significant questions that came up 
2 months ago in the review panel for the toxicological review 
of chromium, and extensive discussion was made about that 
extensive question.
    Senator Inhofe. Are they at risk?
    Mr. Patierno. Are they at risk at the levels in tap water?
    Senator Inhofe. Yes.
    Mr. Patierno. Absolutely not.
    Senator Inhofe. OK, that is what I wanted them to hear.
    The last question I have is for Dr. Cotruvo. I appreciate 
your statement and your emphasis on fixing and maintaining 
infrastructure and reducing leaks and contamination. I was 
telling the Chairman here that I went through this experience 
when I became mayor of Tulsa. We had a deteriorated 
infrastructure.
    Do you think that the funding, the SRF program, the 
revolving fund program, would be important in accomplishing 
some of this infrastructure correction that we need?
    Mr. Cotruvo. Certainly, the financial demands are huge. 
Somehow we built all this without a lot of Federal support over 
the last 200 years. But it has really come to the point where 
there is significant infusion that is needed to get these 
systems back up. And probably Federal funds are going to be 
necessary.
    Senator Inhofe. But revolving funds is what I was referring 
to.
    Mr. Cotruvo. Yes.
    Senator Inhofe. OK, thank you very much. Thank you, Madam 
Chairman.
    Senator Boxer. Thank you.
    Dr. Patierno, I am struck by your confidence that chromium-
6 is safe, and I am going to press you on that. First of all, 
you argue that too much was given to the animals. Isn't this 
what we do in science? Because of their life span, isn't that a 
normal test, that you give a lot to the animal so that you can 
see what is going on?
    Mr. Patierno. Yes, that is a standard procedure. I am not 
arguing that too much was given. What I am arguing is that so 
much was given that it was, it overwhelmed all possible 
protective mechanisms. And even at very, very, very high doses, 
not effect was observed until the two very highest doses, which 
went hand in glove with extensive toxicity to the tissue.
    Senator Boxer. But isn't that being conservative, in your 
approach? Isn't it the point? I understand that you have 
testified as a defense witness, isn't that correct, on 
chromium-6 cases?
    Mr. Patierno. I have on occasion.
    Senator Boxer. Yes, you have. You made money doing that?
    Mr. Patierno. I have.
    Senator Boxer. Yes, you have. I don't make money on any 
side of this thing. I am trying to protect the public, OK? So 
when you tell me too much was given, I want to be conservative 
about this.
    So Dr. Goldman, I think it gets to your point, and Dr. 
Griffiths as well, I would like to ask you to comment on the 
cumulative effect. You made the strong point, and I think Dr. 
Griffiths as well, what we are dealing with here, we are 
looking at something where if a little child is exposed, let's 
say even in utero and continues to be exposed to these 
contaminants, it is a cumulative impact, is it not, Dr. 
Goldman?
    Dr. Goldman. Yes, it is. It is a cumulative impact. It is 
also the impact of exposures over a lifetime. And I should say 
in the case of hexavalent chromium that this has been reviewed 
by expert bodies, like the International Agency for Research on 
Cancer. And they do conclude that it is a risky substance. They 
do not conclude that they can absolutely assure safety at the 
levels of exposure in the population.
    Senator Boxer. Dr. Griffiths?
    Dr. Griffiths. Thank you. The issue of mixtures of 
chemicals is really a big one. Because we have a way in science 
of doing this kind of dancing on the head of a pin where we 
have the chemical or no chemical. But the truth is we live and 
we drink water with lots of different things in it. And we have 
exposures not only through water but air and food and so forth. 
And we really don't have good tools for figuring that stuff 
out.
    So I think that we in fact do have to develop new tools. 
But also, what information we do have suggests that exposure to 
multiple chemicals, even at low levels, can be risky. So I 
think it is important to understand that sometimes it is not 
just one thing. It is like smoking and asbestos exposure. Your 
rates of lung cancer are really high if you both smoke and have 
exposure to asbestos. But they are much lower if you only do 
one.
    Mr. Patierno. May I comment?
    Senator Boxer. Dr. Patierno, yes, I am going to let you 
have the floor in a minute. I am going to ask you this 
question. The National Toxicology Program, which is part of the 
U.S. Department of Health and Human Services, found that 
chromium-6 in drinking water caused cancer in the studies of 
animals. And you have taken issue with how much they got, I 
don't know exactly what you said, you said, I don't think they 
got too much, but it is how much--I was confused on what you 
were talking about.
    And then the EPA's draft assessment on chromium-6 has found 
that this toxic heavy metal is ``likely to be carcinogenic to 
humans when consumed in water.'' So you take issue with this?
    Mr. Patierno. Madam Chairman, it is not just that I take 
issue. All nine members of the external review panel for the 
draft toxicological assessment of hexavalent chromium disagree 
with that assumption. It has to be qualified by dose. And the 
assessments that are done by international agencies on the 
carcinogenicity of chromium deal specifically with high level 
occupational exposures. And they even cite in the literature 
these are exposures as encountered in the chromate production 
pigment and plating industries. Because of the unique chemistry 
and biology of chromium, of hexavalent chromium, and the 
capability of our bodies to reduce hexavalent chromium very 
quickly to trivalent chromium, which is completely non-toxic, 
and in fact, is an essential element, make it unique among 
other chemicals and make it so that it is not scientifically 
sound to do a linear dose extrapolation at high doses.
    Senator Boxer. OK, OK, I get it. You don't agree with it. I 
get it. Now, is there anything you agree with? We have 
standards for 88 different chemicals, I am sure you are aware 
of this, over the years. Do you believe that these are safe and 
shouldn't have had standards associated with them?
    Mr. Patierno. I have not looked into any of the others. I 
was only invited here today to speak on----
    Senator Boxer. I know. But you are making a statement, you 
were a witness for the defense, I am questioning your 
objectivity. So I am trying to find out if you just feel that 
way on--I assume you think it is fine to limit the amount of 
chromium in the water, total chromium, is that correct?
    Mr. Patierno. Total chromium?
    Senator Boxer. Yes, total chromium, which is in fact 
regulated and has been for quite some time.
    Mr. Patierno. I am not sure I am following specifically 
your question.
    Senator Boxer. I am asking a question. There is 88--you are 
an expert--there are 88 chemicals that are regulated under the 
law where they have maximum contaminant levels. This piece of 
paper tells me that chromium is regulated. Are you aware of 
that?
    Mr. Patierno. Yes, I am.
    Senator Boxer. OK. Do you support that?
    Mr. Patierno. I do support that chromium needs to be 
regulated based on the occupational exposures that are so well 
characterized in the literature.
    Senator Boxer. This is drinking water. This isn't 
occupational. This is the Safe Drinking Water law of the land. 
Do you agree that there should be a limit on chromium in 
drinking water?
    Mr. Patierno. Madam Chairman, the question for me is not 
whether there should be. There of course should be. The 
question is at what level.
    Senator Boxer. OK, how about arsenic? Do you think we 
should regulate arsenic in drinking water? Yes or no?
    Mr. Patierno. Madam Chairman, I am here today to speak on 
hexavalent chromium.
    Senator Boxer. No, you are not really. You are not really. 
You are here because we are having an overview of the Safe 
Drinking Water program. And we are not asking you just on 
chromium. What about benzene? What about chlorine? Do you 
support that?
    Mr. Patierno. Any chemical that has potential toxicological 
impact needs to be evaluated and regulated. But each chemical 
needs to be evaluated based on the science supporting that 
specific chemical, the mechanisms of action of that chemical, 
the defense mechanisms that the body has against particular 
chemicals. All of that needs to be taken into consideration.
    One could argue using a different set of criteria that 
something as common and innocuous as acetaminophen shouldn't be 
on the market because two might control a headache but 50 could 
dissolve your liver and create a lethal situation. So it is all 
about dose and form and duration. And then the basic principles 
of toxicology which argue in this case that human beings have 
very, very, very strong defense mechanisms, particularly 
against low levels of hexavalent chromium.
    Senator Boxer. Well, good luck with that theory, because 
you ought to talk to some people who had exposure who don't 
feel that way. But you are a scientist, and I am saying to you, 
we have 88 different chemicals that are regulated here. And if 
people came with your attitude and appeared in court in favor 
of the defense, we wouldn't get anywhere. And we have a problem 
here, and that is why we called you together. Because since 
1998, we haven't regulated anything.
    And I think what you hear from the panel basically is, we 
may not have to regulate a lot of things. We agree that maybe, 
as Dr. Cotruvo said, existent in, and echoed by Dr. Griffith, 
they may be appearing in very small, minute quantities. And 
that is why we have to look at the risk factors, who is exposed 
to these, the cumulative impact, as Dr. Goldman suggested, and 
not just say, we appeared for the defense. That is just not 
going to get us anywhere, when money gets involved in the 
equation.
    We need to have pure science. And that is what I am for, 
pure science.
    Now, we will be very interested to see where the EPA takes 
it on perchlorate. And I could tell you that you just talked to 
my constituent here on perchlorate, when you have 800, what is 
it, 800 parts per billion?
    Mr. Araiza. Yes.
    Senator Boxer. Instead of six?
    Mr. Araiza. Yes.
    Senator Boxer. And you smell that, as I have, and you see 
it, it is scary. It is scary.
    Mr. Araiza. Yes.
    Senator Boxer. And we know the Safe Drinking Water Act is 
going to protect the most vulnerable. We are not talking about 
protecting a 250 pound man who is 6 foot 5 here. That is what 
we just to do. But guess what? A Boxer amendment a very long 
time ago did something your clients didn't like, Dr. Patierno. 
We said, you have to protect the most vulnerable child. That 
was my amendment, God bless it, it passed. And so, no, we are 
going to be conservative when we set these standards, and we 
are going to look to see how we can protect the most 
vulnerable.
    But I want to thank the panel. You have all been very, very 
helpful. We are going to move on and see what happens with 
these rules on chromium-6, on perchlorate. We are going to see 
what happens when the EPA adopts many of the recommendations 
made by the GAO, because clearly, no one can tell me that we 
are any safer today when we haven't even regulated one thing 
since 1998. It just doesn't add up, when you look at the rates 
of cancer out there. Let's just get real here.
    Especially I say to the doctors, we have cancer in people 
younger and younger. We have serious problems, we are spending 
billions of dollars, we don't have a cure. And I will be darned 
if I am going to sit here and allow us to say that this isn't 
important. This is very important and we are going to do our 
work.
    So we look forward to seeing the EPA's response. I am very 
encouraged by today's hearing, because I think the GAO's very 
good work is going to lead us to more science, hopefully less 
politics, more transparency and more action. So thank you very 
much, all of you, for being here today. We stand adjourned.
    [Whereupon, at 12 p.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]

             Statement of Hon. Jeff Sessions, U.S. Senator 
                       from the State of Alabama

    Good morning Mr. Trimble and Dr. Perciasepe. Thank you for 
coming before our committee today.
    We are here today to consider EPA's implementation of the 
Safe Drinking Water Act, which is designed to protect our 
nation's drinking water supplies from harmful contamination. As 
the Ranking Member of the Subcommittee on Water & Wildlife, I 
am interested in learning more about this topic.
    Under this law, EPA currently regulates more than 90 
drinking water contaminants--things like cryptosporidium, 
chlorine, E-coli, and arsenic, just to name a few. These are 
contaminants that we all want to ensure do not damage our 
drinking water. EPA is required by the Safe Drinking Water Act 
to periodically review existing standards as well as to 
consider whether new standards should be issued.
    I am aware that GAO has issued a report expressing an 
opinion that EPA should improve the way it decides whether to 
regulate additional contaminants. I am interested in learning 
more about that report.
    In addition, there are 4 issues, in particular, that I 
think we need to be sure to keep in mind.
    First, the Role of the States. The Safe Drinking Water Act, 
like many of our Federal environmental laws, is based on a 
concept known as ``cooperative federalism.'' EPA oversees the 
program, but the States have a critically important role in 
implementing and administering the program.
    In Alabama, our State environmental management agency works 
closely with more than 700 water systems in the State to ensure 
safe drinking water for our state's 4 million citizens. The 
State enforces compliance with the drinking water standards. 
There are monthly, quarterly, and annual monitoring and 
reporting requirements to ensure compliance. By and large, our 
State has very good drinking water, and I believe we have an 
effective drinking water program.
    We cannot lose focus of the fact that what we do here, at 
the Federal level, results in mandates on the states. Those 
mandates are, in large measure, usually unfunded. So, as we 
explore the possibility of greater regulation, we need to 
ensure there is close consultation with the states, as well as 
with the water systems themselves.
    Second, the Impact of New Standards on Water Systems and 
Water Users. When a new Federal MCL (maximum contaminant level) 
is issued, the water systems have to comply with that new 
standard. That becomes a new cost imposed on those who pay for 
the water. Rural water systems, in particular, often carry the 
heaviest burden when trying to comply with these standards. I 
think we need to be as flexible and reasonable as possible to 
ensure that excessive costs are not imposed on our rural 
communities.
    Third, the Role of Science--does the science justify new 
standards and the costs of those standards. If there are costs 
to be imposed, we need to make sure that the underlying 
decision to create any new standard is correct--based on the 
best available science. I think we need to know more about 
EPA's methodology for establishing drinking water standards, 
and in particular, EPA's ``IRIS'' system.
    Fourth, our Nation's serious infrastructure needs. As 
Senator Inhofe has articulated, we have an aging infrastructure 
in this Nation. Our water infrastructure is, in many cases, 
being used well beyond intended lifespans. I am interested in 
learning more about the impact of our aging infrastructure on 
our ability to ensure safe drinking water.
    Thank you.
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
                <all>
</pre></body></html>
